<html>
<title> - DEMANDING ACCOUNTABILITY IN NATIONAL SERVICE PROGRAMS</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]





         DEMANDING ACCOUNTABILITY IN NATIONAL SERVICE PROGRAMS

=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON HIGHER EDUCATION
                         AND WORKFORCE TRAINING

                         COMMITTEE ON EDUCATION
                           AND THE WORKFORCE

                     U.S. House of Representatives

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

             HEARING HELD IN WASHINGTON, DC, JUNE 23, 2011

                               __________

                           Serial No. 112-30

                               __________

  Printed for the use of the Committee on Education and the Workforce





<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                   Available via the World Wide Web:
                       www.gpo.gov/fdsys/browse/
           committee.action?chamber=house&committee=education
                                   or
            Committee address: http://edworkforce.house.gov

                                -----

                  U.S. GOVERNMENT PRINTING OFFICE
66-967 PDF                WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001














                COMMITTEE ON EDUCATION AND THE WORKFORCE

                    JOHN KLINE, Minnesota, Chairman

Thomas E. Petri, Wisconsin           George Miller, California,
Howard P. ``Buck'' McKeon,             Senior Democratic Member
    California                       Dale E. Kildee, Michigan
Judy Biggert, Illinois               Donald M. Payne, New Jersey
Todd Russell Platts, Pennsylvania    Robert E. Andrews, New Jersey
Joe Wilson, South Carolina           Robert C. ``Bobby'' Scott, 
Virginia Foxx, North Carolina            Virginia
Bob Goodlatte, Virginia              Lynn C. Woolsey, California
Duncan Hunter, California            Ruben Hinojosa, Texas
David P. Roe, Tennessee              Carolyn McCarthy, New York
Glenn Thompson, Pennsylvania         John F. Tierney, Massachusetts
Tim Walberg, Michigan                Dennis J. Kucinich, Ohio
Scott DesJarlais, Tennessee          David Wu, Oregon
Richard L. Hanna, New York           Rush D. Holt, New Jersey
Todd Rokita, Indiana                 Susan A. Davis, California
Larry Bucshon, Indiana               Raul M. Grijalva, Arizona
Trey Gowdy, South Carolina           Timothy H. Bishop, New York
Lou Barletta, Pennsylvania           David Loebsack, Iowa
Kristi L. Noem, South Dakota         Mazie K. Hirono, Hawaii
Martha Roby, Alabama
Joseph J. Heck, Nevada
Dennis A. Ross, Florida
Mike Kelly, Pennsylvania

                      Barrett Karr, Staff Director
                 Jody Calemine, Minority Staff Director

        SUBCOMMITTEE ON HIGHER EDUCATION AND WORKFORCE TRAINING

               VIRGINIA FOXX, North Carolina, Chairwoman

John Kline, Minnesota                Ruben Hinojosa, Texas
Thomas E. Petri, Wisconsin             Ranking Minority Member
Howard P. ``Buck'' McKeon,           John F. Tierney, Massachusetts
    California                       David Wu, Oregon
Judy Biggert, Illinois               Timothy H. Bishop, New York
Todd Russell Platts, Pennsylvania    Robert E. Andrews, New Jersey
David P. Roe, Tennessee              Susan A. Davis, California
Glenn Thompson, Pennsylvania         Raul M. Grijalva, Arizona
Richard L. Hanna, New York           David Loebsack, Iowa
Larry Bucshon, Indiana               George Miller, California
Lou Barletta, Pennsylvania
Joseph J. Heck, Nevada

















                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on June 23, 2011....................................     1

Statement of Members:
    Foxx, Hon. Virginia, Chairwoman, Subcommittee on Higher 
      Education and Workforce Training...........................     1
        Prepared statement of....................................     3
    Hinojosa, Hon. Ruben, ranking minority member, Subcommittee 
      on Higher Education and Workforce Training.................     4
        Prepared statement of....................................     5
    Loebsack, Hon. David, a Representative in Congress from the 
      State of Iowa, prepared statement of.......................    28

Statement of Witnesses:
    Velasco, Robert, II, acting CEO, Corporation for National and 
      Community Service..........................................     6
        Prepared statement of....................................     8

Submissions for the Record:
    Chairwoman Foxx: Questions submitted for the record..........    28
    Mr. Velasco: Responses to questions submitted for the record.    30

 
                      DEMANDING ACCOUNTABILITY IN
                       NATIONAL SERVICE PROGRAMS

                              ----------                              


                        Thursday, June 23, 2011

                     U.S. House of Representatives

        Subcommittee on Higher Education and Workforce Training

                Committee on Education and the Workforce

                             Washington, DC

                              ----------                              

    The subcommittee met, pursuant to call, at 10:03 a.m., in 
room 2175, Rayburn House Office Building, Hon. Virginia Foxx 
[chairwoman of the subcommittee] presiding.
    Present: Representatives Foxx, Kline, Roe, Hanna, Bucshon, 
Hinojosa, Tierney, Grijalva, and Miller.
    Staff present: Jennifer Allen, Press Secretary; Katherine 
Bathgate, Press Assistant/New Media Coordinator; James 
Bergeron, Director of Education and Human Services Policy; 
Casey Buboltz, Coalitions and Member Services Coordinator; 
Heather Couri, Deputy Director of Education and Human Services 
Policy; Amy Raaf Jones, Education Policy Counsel and Senior 
Advisor; Barrett Karr, Staff Director; Rosemary Lahasky, 
Professional Staff Member; Brian Melnyk, Legislative Assistant; 
Krisann Pearce, General Counsel; Mandy Schaumburg, Education 
and Human Services Oversight Counsel; Dan Shorts, Legislative 
Assistant; Alex Sollberger, Communications Director; Alissa 
Strawcutter, Deputy Clerk; Kate Ahlgren, Minority Investigative 
Counsel; Tylease Alli, Minority Clerk; Daniel Brown, Minority 
Junior Legislative Assistant; Jamie Fasteau, Minority Deputy 
Director of Education Policy; Brian Levin, Minority New Media 
Press Assistant; Kara Marchione, Minority Senior Education 
Policy Advisor; and Melissa Salmanowitz, Minority 
Communications Director for Education.
    Chairwoman Foxx. A quorum being present, the subcommittee 
will come to order. Good morning to all of our guests.
    And good morning, Mr. Velasco. We appreciate the time you 
have taken to be with us today.
    America has always been known as a place where volunteerism 
exists in every community. Whether serving at a local food bank 
assisting those who spend their nights at a nearby shelter, or 
simply lending a helping hand to a neighbor in need, those who 
volunteer their time and resources on behalf of their community 
help meet the many needs of our diverse society.
    In recent decades, Washington has tried to pursue policies 
that will encourage more citizens to step up and help those in 
need. Those efforts were perhaps most visible in 1973, with the 
passage of the Domestic Volunteer Service Act. In later years, 
Congress attempted to streamline community service programs 
through the creation of the Corporation for National and 
Community Service.
    Today, the Corporation oversees the community service 
activities of roughly nine distinct programs, including 
AmeriCorps, the Senior Volunteer Corps, and the Social 
Innovation Fund, and manages an annual budget in excess of $1 
billion. The Corporation, and members of Congress, have a 
responsibility to make certain those tax dollars are being 
well-spent.
    During the last three authorizations of these programs, I 
was proud to lead an effort on behalf of my Republican 
colleagues to strengthen protections over the use of these 
taxpayer funds. As a direct result, what was once merely 
spelled out in regulation and subject to the changing whims of 
each administration is now a matter of federal law.
    We acted to stop the use of taxpayer funds for advocacy, 
lobbying, protesting, union organizing, partisan political 
activity, and providing or referring individuals to places to 
receive abortion services. We also expanded the organizations 
and entities prohibited from receiving funds to include 
political parties, labor organizations, and lobbying firms.
    We did this to help ensure federal resources are not 
dedicated to activities taxpayers find politically divisive or 
morally objectionable. However, as with any law, Congress' best 
efforts to protect taxpayers can go only so far. It is the 
responsibility of the administration of the programs to fully 
enforce the laws passed by Congress. With a bureaucracy as vast 
and complicated as the one we face today, we recognize this is 
often a difficult task.
    Despite whatever challenges the administration may face, 
however, it is their public duty nonetheless. That is why 
recent reports of improper activity in New York City and 
Tacoma, Washington are so deeply troubling. In both situations, 
program participants apparently engaged in illegal activity. 
And in a New York City Planned Parenthood facility, two 
AmeriCorps trained and organized individuals to be advocates on 
behalf of Planned Parenthood.
    Had it not been for a Planned Parenthood employee 
inadvertently reporting this activity, it could still be going 
on to this day. In Washington, the Tacoma Community College 
placed a participant at another Planned Parenthood facility to 
serve as a, quote--``escort'' for the organization.
    How this could possibly abide by the spirit of volunteerism 
is beyond me. I appreciate that once notified of these 
situations, the Corporation acted swiftly to stop the 
prohibited activities and inform Congress. However, our goal 
should be to prevent these kinds of activities before they take 
place.
    Today, we will take a close look at the Corporation's 
efforts to detect and prevent illegal activities, examine the 
steps they have taken in recent weeks to improve their 
enforcement practices, and discuss whether additional changes 
are needed to better protect taxpayers. We all understand the 
very serious fiscal challenges facing our nation. Years of 
runaway federal spending and debt have brought this country to 
the breaking point.
    Now, more than ever, we must do everything in our power to 
guarantee each taxpayer dollar is spent on behalf of the public 
good.
    With that said, Mr. Velasco, we recognize your time is 
important so I am going to conclude my remarks, and recognize 
Mr. Hinojosa, the senior Democrat of the subcommittee, for his 
opening remarks.
    [The statement of Mrs. Foxx follows:]

         Prepared Statement of Hon. Virginia Foxx, Chairwoman,
        Subcommittee on Higher Education and Workforce Training

    Good morning to all of our guests, and good morning, Mr. Velasco. 
We appreciate the time you have taken to be with us today.
    America has always been known as a place where volunteerism exists 
in every community. Whether serving at a local food bank, assisting 
those who spend their nights at a nearby shelter, or simply lending a 
helping hand to a neighbor in need, those who volunteer their time and 
resources on behalf of their community help meet the many needs of our 
diverse society.
    In recent decades, Washington has tried to pursue policies that 
will encourage more citizens to step up and help those in need. Those 
efforts were perhaps most visible in 1973 with the passage of the 
Domestic Volunteer Service Act. In later years, Congress attempted to 
streamline community service programs through the creation of the 
Corporation for National and Community Service. Today, the corporation 
oversees the community service activities of roughly nine distinct 
programs, including AmeriCorps, the Senior Volunteer Corps, and the 
Social Innovation Fund, and manages an annual budget in excess of $1 
billion. The corporation and members of Congress have a responsibility 
to make certain those tax dollars are being well spent.
    During the last reauthorization of these programs, I was proud to 
lead an effort on behalf of my Republican colleagues to strengthen 
protections over the use of these taxpayer funds. As a direct result, 
what was once merely spelled out in regulation and subject to the 
changing whims of each administration is now a matter of federal law. 
We acted to stop the use of taxpayer funds for advocacy, lobbying, 
protesting, union organizing, partisan political activity, and 
providing or referring individuals to places to receive abortion 
services. We also expanded the organizations and entities prohibited 
from receiving funds to include political parties, labor organizations, 
and lobbying firms. We did this to help ensure federal resources are 
not dedicated to activities taxpayers find politically divisive or 
morally objectionable.
    However, as with any law, Congress's best efforts to protect 
taxpayers can only go so far. It is the responsibility of the 
administration of the programs to fully enforce the laws passed by 
Congress. With a bureaucracy as vast and complicated as the one we face 
today, we recognize this is often a difficult task. Despite whatever 
challenges the administration may face, it is their public duty 
nonetheless.
    That is why recent reports of improper activity in New York City 
and Tacoma, Washington are so deeply troubling. In both situations, 
program participants apparently engaged in illegal activity. At a New 
York City Planned Parenthood facility, two AmeriCorps participants 
trained and organized individuals to be advocates on behalf of Planned 
Parenthood. Had it not been for a Planned Parenthood employee 
inadvertently reporting this activity, it could still be going on to 
this day. In Washington, the Tacoma Community College placed a 
participant at another Planned Parenthood facility to serve as an 
``escort'' for the organization. How this could possibly abide by the 
spirit of volunteerism is beyond me.
    I appreciate that once notified of these situations, the 
corporation acted swiftly to stop the prohibited activities and 
informed Congress. However, our goal should be to prevent these kinds 
of activities before they take place. Today, we will take a close look 
at the corporation's efforts to both detect and prevent illegal 
activities, examine the steps they have taken in recent weeks to 
improve their enforcement practices, and discuss whether additional 
changes are needed to better protect taxpayers.
    We all understand the very serious fiscal challenges facing our 
nation. Years of runaway federal spending and debt have brought this 
country to the breaking point. Now more than ever, we must do 
everything in our power to guarantee each taxpayer dollar is spent on 
behalf of the public good. With that said, Mr. Velasco, we recognize 
your time is important so I will conclude my remarks and recognize Mr. 
Hinojosa, the senior Democrat of the subcommittee, for his opening 
remarks.
                                 ______
                                 
    Chairwoman Foxx. Mr. Hinojosa?
    Mr. Hinojosa. Thank you very much Chairwoman Foxx.
    I would like to welcome Mr. Velasco, acting CEO for the 
Corporation for National and Community Service, for joining us 
today. I wish that this room were packed, standing room only, 
so that those thousands and thousands of volunteers throughout 
the country would hear the proceeding of today's congressional 
hearing.
    I understand that this is your third week on the job, and I 
thank you for taking on this new leadership role in the federal 
government. In my view, there is absolutely no doubt that 
community service and volunteer opportunities help build 
stronger communities by transforming lives and fostering civic 
engagement and innovation.
    National Service is, indeed, the cornerstone of our 
democracy, and its value to our society is monumental. In 2010, 
CNCS engaged over 5 million volunteers in national and 
community service to improve the quality of life of others. 
These volunteers have served as teachers, tutors, mentors, and 
counselors in many high-need schools like those that I have in 
my congressional district.
    In cases of natural disasters, volunteers have helped local 
communities prepare, mitigate, respond, and recover from forest 
fires, floods, hurricanes, and tornadoes. Volunteers have 
assisted our nation's veterans in adjusting to civilian life, 
constructed and rebuilt homes for thousands of families, helped 
our nation's seniors in maintaining the highest degree possible 
of independent living, and much more.
    Having worked closely with the late Senator, Edward 
Kennedy, and Representative George Miller on the Edward M. 
Kennedy Serve America Act, legislation which reauthorized and 
expanded the national service programs administered by CNCS, I 
personally feel a great deal of responsibility to ensure that 
this agency has strong management, monitoring, and oversight as 
well as the resources to effectively administer its programs 
and carry out its mission.
    While there is always room for improvement, I strongly 
believe that CNCS is a well-managed organization. In fact, the 
agency has begun implementing a 5-year strategic plan which 
builds on the federal government's national service work over 
the past four decades and the vision outlined in the Serve 
America Act of 2009.
    Approved by the board in February, this strategic plan is 
the result of a 9-month collaborative effort between CNCS and 
its network of state commissions, grantees, project sponsors, 
participants, staff and the public. Above all, CNCS has a 
robust monitoring program in place, and is overseen by a 
bipartisan presidentially-appointed board of directors.
    In regard to the recent incidences that the chairwoman just 
included in her remarks that occurred with the AmeriCorps 
program. In both instances, CNCS discovered and resolved these 
issues where volunteers were identified as either potentially 
taking part in prohibited activities or at an unsafe location.
    In my opinion, CNCS handled these cases in a timely, a 
professional manner, adhering to the federal laws and 
regulations that govern that agency. CNCS is also taking 
additional steps to enhance its monitoring and oversight of 
national programs.
    These actions should--these actions include interactive 
training about prohibited activities for all grantees, 
highlighting and disseminating effective practices for 
prohibited activities, prevention, detection, and enforcement, 
communicating directly with AmeriCorps volunteers about 
prohibited activities, prioritizing placement sites for review 
using newly-available site locations, and establishing a 
process to review representative samplings of member physician 
descriptions.
    It is important to underscore that the structure of the 
AmeriCorps program is intended to provide states and 
communities with the greatest degree of flexibility to respond 
to local needs. While the federal government strives for state 
and local flexibility, this cannot come at the expense of 
accountability, monitoring and oversight, which I strongly 
support.
    In closing, I want to say that as we proceed with today's 
hearing I strongly encourage my colleagues on both sides of the 
aisle on this committee to focus on the vital importance of 
national service, a bipartisan issue that benefits local 
communities all across America, and the spirit and intent of 
Edward M. Kennedy Serve America Act.
    With that, Madam Chair, I yield back.
    [The statement of Mr. Hinojosa follows:]

  Prepared Statement of Hon. Ruben Hinojosa, Ranking Minority Member,
        Subcommittee on Higher Education and Workforce Training

    Thank you, Chairwoman Foxx.
    I would like to welcome Robert Velasco ii, acting chief executive 
officer (CEO) for the Corporation for National and Community Service 
(CNCS) for joining us today. I understand that this is your third week 
on the job, and I thank you for taking on this new leadership role in 
the federal government.
    In my view, there is absolutely no doubt that community service and 
volunteer opportunities help build stronger communities by transforming 
lives and fostering civic engagement and innovation. National service 
is indeed the cornerstone of our democracy, and its value to our 
society is monumental.
    In 2010, CNCS engaged over five million volunteers in national and 
community service work to improve the quality of life of others. These 
volunteers have served as teachers, tutors, mentors, and counselors in 
high need schools. In cases of natural disasters, volunteers have 
helped local communities prepare for, mitigate, respond, and recover 
from forest fires, floods, hurricanes and tornadoes. Volunteers have 
assisted our nation's veterans in adjusting to civilian life, 
constructed and rebuilt homes for thousands of families, helped our 
nation's seniors in maintaining the highest degree possible of 
independent living and much more.
    Having worked closely with the late senator Edward Kennedy and 
representative George Miller on the Edward M. Kennedy Serve America 
Act, legislation which reauthorized and expanded the national service 
programs administered by CNCS, I feel a great deal of responsibility to 
ensure that the agency has strong management, monitoring, and 
oversight, as well as the resources to effectively administer its 
programs and carry out its mission.
    While there is always room for improvement, I strongly believe that 
CNCS is a well-managed organization. In fact, the agency has begun 
implementing a 5-year strategic plan which builds on the federal 
government's national service work over the past four decades and the 
vision outlined in the Serve America Act of 2009. Approved by the board 
in February, this strategic plan is the result of a nine-month 
collaborative effort between CNCS and its network of state commissions, 
grantees, project sponsors, participants, staff, and the public. Above 
all, CNCS has a robust monitoring program in place, and is overseen by 
a bi-partisan, presidentially appointed board of directors.
    In regard to the recent incidences that occurred with the 
AmeriCorps program, in both instances, CNCS discovered and resolved 
these issues, where volunteers were identified as either potentially 
taking part in prohibited activities or at an unsafe location. In my 
opinion, CNCS handled these cases in a timely and professional manner, 
adhering to the federal laws and regulations that govern the agency.
    CNCS is also taking additional steps to enhance its monitoring and 
oversight of national programs. These actions include requiring 
interactive training about prohibited activities for all grantees; 
highlighting and disseminating effective practices for prohibited 
activities prevention, detection, and enforcement; communicating 
directly with AmeriCorps volunteers about prohibited activities; 
prioritizing placement sites for review using newly available site 
location; and establishing a process to review representative sampling 
of member position descriptions.
    It's important to underscore that the structure of the AmeriCorps 
program is intended to provide states and communities with the greatest 
degree of flexibility to respond to local needs. While the federal 
government strives for state and local flexibility, this cannot come at 
the expense of accountability, monitoring, and oversight.
    As we proceed with today's hearing, I strongly encourage my 
colleagues on this committee to focus on the vital importance of 
national service, a bipartisan issue that benefits local communities 
all across America, and the spirit and intent of Edward M. Kennedy 
Serve America Act.
    Thank you.
                                 ______
                                 
    Chairwoman Foxx. Thank you very much, Mr. Hinojosa.
    Pursuant to Committee Rule 7C, all subcommittee members 
will be permitted to submit written statements to be included 
in the permanent hearing record. And without objection, the 
hearing record will remain open for 14 days to allow 
statements, questions for the records, and other extraneous 
material referenced during the hearing, to be submitted in the 
official hearing record.
    It is now my pleasure to introduce our distinguished 
witness. Mr. Robert Velasco was designated acting CEO of the 
Corporation for National and Community Service by President 
Obama on May 27, 2011. As Mr. Hinojosa said, you are fairly 
new.
    Mr. Velasco has over a decade of experience managing large 
programs and complex organizations. Prior to becoming acting 
CEO, he served as chief operating officer and acting chief of 
program operations for the Corporation. Before his tenure at 
the Corporation, Mr. Velasco worked in management program and 
regional operations across the U.S. Department of Health & 
Human Services.
    Most recently, he served as director of management 
operations within HHS's Office of Medicare Hearings and 
Appeals. Before I recognize you to provide your testimony, let 
me briefly explain our lighting system.
    You will have 5 minutes to present your testimony. When you 
begin, the light in front of you, or over to your left, will 
turn green. When 1 minute is left, the light will turn yellow. 
And when your time is expired, the light will turn red, at 
which point I would ask that you wrap up your remarks as best 
as you are able.
    After you have testified, members will each have 5 minutes 
to ask questions of you.
    So now I would like to recognize you for 5 minutes.

    STATEMENT OF ROBERT VELASCO, II, ACTING CHIEF EXECUTIVE 
    OFFICER, CORPORATION FOR NATIONAL AND COMMUNITY SERVICE

    Mr. Velasco. Chairwoman Foxx, Congressman Hinojosa, thank 
you for this opportunity to testify today.
    I will keep my comments brief, and ask that my written 
testimony be made part of the record. I welcome this 
opportunity to discuss our agency's commitment to 
accountability, oversight in monitoring practices, and 
enhancements we plan to make.
    Relying on principles of local control, competition, and 
public-private partnership, the Corporation for National and 
Community Service engages 5 million Americans in service each 
year through more than 70,000 community and faith-based 
organizations.
    These Americans tutor and mentor youth, rebuild communities 
struck by natural disasters, help seniors live independently, 
support veterans and military families, and meet other local 
needs, providing vital services to millions of our fellow 
citizens. National service recognizes that many of the best 
solutions come from outside Washington.
    It invests in people, not bureaucracies, to solve problems, 
tapping the energy and ingenuity of our greatest resource, the 
American people. For 45 years, presidents and Congresses of 
both parties have invested in national service. The 2009 Serve 
America Act reflected the bipartisan consensus that service is 
essential to meeting today's challenges.
    We are committed to implementing the act as Congress 
intended. We are here to discuss accountability in national 
service. I want to assure the committee that we have a deep, 
long-standing, and ongoing commitment to ensuring the highest 
levels of accountability.
    CNCS is a well-managed agency with a strong culture of 
compliance and accountability. That is why we were concerned 
when we received information that led us to suspect that two 
AmeriCorps in New York were engaged in prohibited activities. 
Once we detected the potential problem, we moved immediately to 
assess the situation, discovered prohibited activity, and 
worked with our grantee to have the members removed from 
service.
    We notified our inspector general, the bipartisan board of 
directors, and this committee. We are working to recoup any 
misspent federal funds. The inspector general indicated that we 
have handled the matter appropriately, federal funds were 
protected, and this situation is resolved.
    Based on my experience working in this and other federal 
agencies, the oversight and monitoring that CNCS performs is 
well-designed, well-executed and effective. I would like to 
highlight some of our current oversight and monitoring 
practices, which are explained in depth in my written 
testimony.
    First, we prevent prohibited activity by communicating our 
rules before a grant is ever made and at every stage of the 
process, through application instructions, grant provisions, 
member contracts, and grantee trainings. Second, we detect 
potential prohibited activity through a comprehensive 
monitoring and oversight protocol that includes site visits, 
desk audits, and grant reviews.
    And third, if a prohibited activity occurs we enforce our 
rules by requiring corrective action plans, reporting 
activities to the IG and, in some cases, suspending or 
terminating a grant. Given our commitment to accountability and 
our ethic of continuous improvement, and in response to this 
recent incident, we have developed an action plan that includes 
the following steps.
    First, we will enhance our monitoring protocol in several 
ways, including requiring all AmeriCorps grantees to annually 
assure compliance with regulations on prohibited activities. 
Second, we will enhance our training and technical assistance 
by strengthening what is provided to grantees and members about 
prohibited activities, including new, direct communication to 
members.
    And finally, we will review our risk assessment tools to 
identify enhancements for preventing and detecting prohibited 
activities. We are pleased to share this action plan, and 
welcome your ideas for improvements. We will report our 
progress to you during the next 90 days, and beyond.
    In closing, I hope my testimony today, and the actions we 
took in this case, assures the committee of our commitment to 
accountability. We look forward to working with the committee 
to further strengthen the impact of national service on the 
challenges facing our communities and the nation.
    Today and every day, in communities with the greatest needs 
across our country, AmeriCorps members are on the front lines 
of America's toughest problems. Hundreds are serving today in 
Joplin, Tuscaloosa, Iowa City and other towns ravaged by 
tornadoes, floods, and forest fires. AmeriCorps members are 
also responding to the everyday challenges of hunger, 
homelessness and illiteracy that prevent millions of Americans 
from reaching their full potential in life.
    Again, thank you. And I am pleased to respond to your 
questions.
    [The statement of Mr. Velasco follows:]

          Prepared Statement of Robert Velasco, II Acting CEO,
             Corporation for National and Community Service

    Madam Chair. Congressman Hinojosa. Thank you for the opportunity to 
testify before the Committee today.
    I am Robert Velasco II, the Acting Chief Executive Officer (CEO) of 
the Corporation for National and Community Service (CNCS). I am a 
senior career Federal employee and have served for over 17 years in 
various Federal agencies, including the Administration for Children and 
Families and Medicare Hearings and Appeals at the United States 
Department of Health and Human Services. I came to CNCS 10 months ago 
to serve as the Chief Operating Officer. And I was honored when the 
President recently asked me to step in as the Acting CEO until the 
President nominates, and the Senate confirms, a permanent CEO.
    I am here today because I share your commitment to accountability 
in national service programs. During this testimony, I will describe 
the agency's procedures to prevent prohibited activities by grantees, 
detect possible prohibited activity, and enforce rules on prohibited 
activities. Additionally, I will outline recent actions in identifying 
and addressing an instance of alleged prohibited activity by AmeriCorps 
members. In the spirit of accountability and transparency, I welcome 
this opportunity to provide an explanation of what happened, what we 
did about it, and what we plan to do in the future to prevent a 
recurrence.
    In a moment I will address in detail the various systems that CNCS 
has put in place to ensure accountability in national service. But 
first, I would like to begin by giving the Committee an overview of the 
important role CNCS plays in both engaging and serving the American 
people.
CNCS--An Overview of Who We Are
    CNCS is a federal agency that brings leadership, resources, 
coordination, focus, and scale to America's voluntary sector. CNCS 
programs bring together those who want to serve with the assets of 
community organizations and the funding from public and private sectors 
to build enduring community capacity. With federal funds, CNCS supports 
a network of state service commissions, intermediary organizations, 
grantees, non-profit organizations and sponsors through which millions 
of Americans help the most vulnerable citizens, improve their 
neighborhoods, and transform their own lives. As a result of this 
network, citizen-centered solutions take root, are sustained, and 
transform communities and the nation.
    CNCS is a federal agency structured like a Corporation, governed by 
a Presidentially-appointed, Senate-confirmed CEO and actively engaged 
bi-partisan Board of Directors.
    But, CNCS has its roots in our country's historic commitment to 
national service that reaches back to the Civilian Conservation Corps, 
the Peace Corps, VISTA and Senior Corps through more recent additions 
such as the Points of Light and AmeriCorps. These initiatives have been 
supported by Presidents and Congresses of both parties. And there is 
growing recognition from Governors and Mayors across the country of the 
value of national service in meeting local needs and fostering a sense 
of connection and community. Reflecting that bi-partisan history and 
enthusiasm, in 2009 Congress passed landmark legislation to reauthorize 
our agency and its programs through the Edward M. Kennedy Serve America 
Act, the most sweeping expansion of national service in our nation's 
history. CNCS is governed by a Senate-confirmed, actively engaged, bi-
partisan Board of Directors.
    The agency's mission is to improve lives, strengthen communities 
and foster civic engagement. To that end, CNCS programs directly engage 
nearly half a million Americans in intense, results-driven service and 
volunteer action.
    In the original legislation creating CNCS, Congress determined that 
the best way to fulfill that mission was to establish a strong 
partnership between the agency and state governments. A large 
percentage of CNCS resources are distributed to and administered by 
Governor-appointed state commissions on service and volunteering. In 
addition, the agency is designed as a public-private partnership, with 
resources reaching national and local non-profits. Through this system, 
Congress wanted to be sure that national service resources would be 
directed to local non-profits that are able to identify and meet the 
specific and often unique challenges that face our local communities.
    National service participants play a critical role in responding to 
natural disasters like the tornados in Tuscaloosa and Joplin, and also 
in responding to less dramatic but equally challenging situations like 
the school drop-out crisis, the plight of returning veterans and 
challenges facing military families. Among the non-profits that rely on 
CNCS support are national organizations such as Habitat for Humanity, 
United Way, Teach for America, Boys and Girls Clubs, City Year, the 
American Red Cross and YouthBuild USA. Our reach is equally as strong 
in outstanding local organizations like the Stokes County Partnership 
for Children in King, NC; AmeriCorps Youth Harvest Program in Pharr, 
TX; Minnesota Reading Corps in Minneapolis, MN; the American Red Cross 
Southern Arizona's veteran corps program, Operation Desert Home, in 
Tucson, AZ; and BAYAC AmeriCorps in Richmond, CA.
    In tough economic times and an era of tight budgets, volunteer 
service has increasingly become an essential strategy for meeting 
community challenges. And notably, the support that CNCS is able to 
provide to states and non-profits is matched by funds from others 
sources--last year alone CNCS-supported programs attracted more than 
$800 million of resources from other sources in the national service 
arena.
    In the over five years since Hurricane Katrina more than 105,000 
national service participants have given 10 million hours of service--
helping to repair or build more than 12,500 homes, manage more than 
600,000 people who came to the Gulf to volunteer their time and talent, 
and ultimately to serve more than 3 million people who live in the 
states and communities along the Gulf Coast. That is why Mississippi 
Governor Haley Barbour recently called national service ``about as good 
an equation as you can find for making a Federal program work, with 
state oversight, serving community needs, and bettering the individuals 
who serve.''
    And the post-Katrina situation is being replayed right now in 
Joplin, Missouri, the site of the worst tornado in American history.
    The tornado touched down in Joplin at 6 in the evening and the 
first AmeriCorps members arrived on the ground at 2 a.m., just 8 hours 
later. By 5:30 a.m. they had established the first call center so 
Joplin residents and their loved ones could establish a connection with 
one another, and later that first day they had established the 
volunteer recruitment and deployment center. Since the tornado struck 
on May 22, just one month ago, AmeriCorps members have helped to 
recruit, deploy, supervise and thank more than 28,000 people who have 
volunteered more than 161,000 hours. It is a stunning effort. And it 
explains why the Assistant City Manager who is leading the response and 
recovery effort in Joplin recently said to the AmeriCorps members: 
``Whatever you guys do, please don't go.''
    I recently had the opportunity to witness first-hand the power of 
AmeriCorps members who are hard at work organizing and supervising 
volunteers. I was one of hundreds of people who volunteered to help 
revitalize hard-hit neighborhoods in New Orleans. It was a powerful 
experience to rebuild playgrounds alongside energetic community members 
who were overwhelmed with gratitude for the widespread effort. Even 
more moving was witnessing the result of AmeriCorps members who had 
helped rebuild the home of a long-time New Orleans East resident and 
were moving her back in nearly six years after Katrina damaged it.
    What I saw and experienced is the same thing that Governor Haley 
Barbour saw, the same thing the Assistant City Manager in Joplin saw--
that AmeriCorps members play a crucial role not only in getting work 
done on the frontlines to help real people in very real ways, but also 
in leveraging the time, talent and energy of American citizens who want 
to volunteer.
    The service experience leaves an indelible mark on those who serve 
as well. Since its inception, nearly 700,000 Americans have 
participated in AmeriCorps. AmeriCorps alumni share an abiding 
commitment to helping their communities and are leaders in business, 
nonprofits and government, including the U.S. Congress. AmeriCorps 
service--like service in the armed forces and the Peace Corps--is a 
formative experience for young Americans who want to be of service to 
their communities and their country.
Accountability at CNCS
    CNCS puts a high premium on being a well-managed agency--we strive 
to be an agency that produces real impact in communities across the 
country and is a good steward of taxpayer resources. We have worked 
hard to establish a culture of accountability and compliance both 
within the agency and among the organizations that receive grant funds 
from the agency.
    With some of our programs, the competitive nature of the grant 
process helps to ensure that accountability. The AmeriCorps program 
selects its grantees through a rigorous competitive process involving 
detailed applications and multiple layers of review, including 
independent reviews by outside experts. In recent years, the grant 
selection process for AmeriCorps awards has been especially competitive 
as AmeriCorps members are regarded as an extremely valuable resource 
and national service is increasingly embraced as a strategy for meeting 
community needs.
    Like other federal and state grantmaking agencies, CNCS uses a 
risk-based monitoring approach to oversee the performance and 
compliance of national service grantees. The agency's approach is 
founded on basic federal practice for the type of grants we give and is 
consistent with recommendations from our Inspector General and the 
GAO's recommended approach to federal grants monitoring and is 
described more fully below in the section on detection.
    To understand CNCS's oversight and monitoring rubric, it is 
important to keep in mind the way Congress set up CNCS' grantmaking and 
how CNCS-supported programs operate. As noted above, the agency makes 
grants to Governor-appointed state commissions and to national non-
profit organizations. Those state commissions and national non-profits, 
in turn, make subgrants to local organizations that recruit, train, 
deploy and supervise AmeriCorps members.
    Accordingly, the agency's oversight and monitoring approach 
reflects the multi-layered and decentralized approach to the 
distribution of funds. CNCS's responsibility lies primarily with the 
organizations that are direct grantees of the agency. Those grantees, 
in turn, are responsible for overseeing and ensuring the performance 
and compliance of the subgrantees. In conducting our oversight and 
monitoring of our direct grantees, we look at how those organizations 
perform and also very carefully examine how those organizations in turn 
oversee and monitor their subgrantees.
    With respect to all of the rules that govern CNCS grants--including 
the prohibited activities for AmeriCorps members--CNCS's oversight and 
monitoring activities fall into three categories: prevention, detection 
and enforcement.
    Preventing Prohibited Activities. Considering its straight-forward 
purpose, the AmeriCorps grant program is a complex structure with an 
even more complex set of rules. Among the important restrictions 
governing the AmeriCorps grant program are those setting forth the 
types of activities that are ``prohibited'' and may not be performed by 
grantee staff or AmeriCorps members during their service hours. Those 
activities, reinforced by the Serve America Act, include union 
organizing, engaging in protests or boycotts, and conducting a voter 
registration drive. 42 U.S.C. 12584a. To ensure the success of our 
grantees, CNCS undertakes extensive efforts to convey its rules in a 
clear and comprehensible manner. We begin communicating these rules 
before a grant is ever made, and reiterate them at every stage of the 
grants process.
    In its outreach to prospective applicants, CNCS begins to lay out 
the framework for AmeriCorps service, emphasizing not only what 
AmeriCorps members should be used for, but also what they should never 
be used for, including prohibited member activities. Prospective 
applicants are then informed through the grant application of the laws 
and rules that apply to CNCS grants, including prohibited activities. 
The application instructions specifically direct applicants to describe 
how they will ensure compliance with the rules on prohibited 
activities. In submitting an application for funding, an organization 
provides certifications and assurances that it understands and will 
abide by all of the rules, including the rules on prohibited 
activities.
    A grant applicant must also provide a detailed description of 
proposed member activities. CNCS reviews proposed member activities 
during its competitive grant process to ensure that the activities not 
only address an unmet community need, but also are appropriate for 
AmeriCorps service. If an activity appears to pose a risk that a member 
may be used for a prohibited purpose, CNCS directly clarifies with the 
applicant to ensure that this is not the case.
    If an organization is selected for funding, it receives a grant 
award notification that includes extensive provisions detailing all of 
the requirements associated with the grant, including prohibited member 
activities. By accepting the grant award, the organization accepts 
absolute responsibility for complying with all of the requirements. 
Each grantee further agrees that it is ultimately responsible for 
ensuring that any organization to which it sub-grants CNCS funds (i.e., 
``subgrantees'') or that serves as a placement site for AmeriCorps 
members is informed of and commits to complying with all of CNCS's 
requirements.
    Not only is the grantee ultimately responsible for its subgrantees' 
compliance, but also for ensuring that each AmeriCorps member supported 
under the grant receives proper training on prohibited activities, 
monitoring, and supervision. The grantee must require each member to 
sign a ``member contract'' detailing, among other things, prohibited 
member activities. At the time the member completes service, both the 
member and the responsible program must provide separate certifications 
to CNCS, under penalty of perjury, that the member did not engage in 
prohibited activities during service hours.
    During the grant's operation, CNCS provides support to grantees in 
meeting their obligations, including providing regular training and 
technical assistance. CNCS dedicates considerable time and assistance 
to new grantees in developing appropriate policies and procedures to 
support compliance of sub-grantees and placement sites. For new 
grantees, CNCS often reviews sample position descriptions, member 
agreements, site agreements, and training curricula to ensure that all 
AmeriCorps members and site locations are instructed on prohibited 
activities. For further support, we make extensive materials available 
through the online National Service Resource Center, and in some 
instances provide onsite assistance.
    Throughout the grant's operation, our staff serve as a continuing 
resource to AmeriCorps programs. It is common for grantees to seek 
guidance from program officers about the rules, including inquiries 
related to appropriate member assignments and activities. Certain 
prohibited activities present more questions than others, especially 
those prohibitions around religious and political activities during 
service hours. Thus, CNCS has offered trainings specific to these 
subjects, and has developed and regularly updates frequently asked 
questions on these activities for our grantees and members, available 
on our website, and distributed to our grantees as part of the agency's 
Office of General Counsel's annual reminder detailing the restrictions 
on engaging in prohibited activities during AmeriCorps service.
    As you can see, CNCS has a comprehensive and multi-faceted 
prevention protocol that forms the basis of the culture of compliance 
within the agency and among the grantees.
    Detecting Prohibited Activities. To support our efforts to strictly 
enforce applicable laws, regulations and agency rules, we also work 
diligently to verify that grantees are complying. As noted above, the 
agency uses a risk-based approach to monitoring. The agency conducts an 
annual review of state commissions and direct grantees to assess and to 
prioritize our monitoring activity and resources. In addition to this 
overall review of all grantees, our program and grant monitoring staff 
are constantly reviewing materials and reports to see if they raise 
questions about a grantee's performance or compliance.
    Each year, CNCS develops a monitoring plan that establishes (1) the 
``baseline'' for a given fiscal year that identifies those grantees 
that will be monitored, and (2) the level of additional monitoring 
activity that will be conducted during the course of that fiscal year. 
Baseline monitoring activities are those that are identified through 
the risk-assessment process as high priorities and must be monitored 
during that fiscal year. Additional monitoring activities are those 
that are not essential but may be conducted over the course of the 
fiscal year as need arises and as staff and travel resources are 
available. Grantees are evaluated each year based on four multi-factor 
criteria: organizational strength; program success; financial 
competency; and compliance with CNCS administrative programs.
    Based on the risk assessment and identification of potential 
problems described above, CNCS conducts several forms of oversight and 
monitoring on a wide range of performance and compliance measures, 
including prohibited activities. Some monitoring takes the form of desk 
audits that are conducted by trained and knowledgeable program officers 
over the phone from the agency offices. In addition, each year many 
grantees receive onsite monitoring visits. As with desk audits, onsite 
monitoring is conducted by program officers who are well-trained in our 
monitoring protocol and are very knowledgeable about the applicable 
statutes, regulations and rules. Desk audits can be comprehensive or 
targeted on a specific issue that has come to the fore. Onsite visits 
are comprehensive reviews of performance and compliance on multiple 
dimensions. Whether the monitoring activity is remote or onsite, the 
monitoring procedures involve a detailed protocol to explore and 
uncover any issues that may arise concerning the grantee.
    A key part of the monitoring protocol is to determine whether the 
grantee has developed the necessary policies and procedures to assure 
compliance and is actually implementing those policies and procedures. 
But the review goes far beyond assessing policies and procedures. 
During site visits, CNCS staff also review service activities and speak 
directly to AmeriCorps members to specifically check for prohibited 
activities. When non-compliance is discovered, the Corporation's 
enforcement protocol, which is described below, comes into play and 
grantees are brought into compliance as quickly as possible.
    We require our direct grantees to use the same or similar type of 
oversight and monitoring tools and procedures in reviewing the 
performance and compliance of their subgrantees.
    We have worked hard to develop and implement our oversight and 
monitoring tools. In the spirit of continuous learning and improvement, 
we are always looking for ways to enhance the effectiveness of our 
oversight and monitoring.
    In addition to our own efforts to detect whether prohibited 
activities are taking place, the Inspector General (IG) plays a crucial 
role. The IG maintains a hotline for anyone to call if they believe a 
prohibited activity may be taking place. The IG's office also conducts 
its own oversight and monitoring of CNCS grantees. The IG brings the 
agency individual findings in specific cases and provides 
recommendations for improving our accountability measures in general. 
We have worked closely and cooperatively with our IG. Over the years, 
the Office of IG reviewed our detection and monitoring protocol during 
its regular audits of the agency. On more than one occasion prior to 
2005, the IG commented that CNCS's monitoring needed improvement. In 
response to that concern, CNCS has implemented several improvements 
recommended by the IG and has received progressively improved 
evaluations of our system. In fact, the IG no longer considers our 
monitoring protocol to be a subject of concern.
    Enforcing the Rules Regarding Prohibited Activities. In the event 
that individuals and organizations fail to abide by the rules, CNCS can 
implement several enforcement options depending on the nature, 
circumstances and severity of the infraction. The enforcement tools 
range from assistance with compliance in cases of the mildest and most 
innocent mistakes to termination of service or termination of a grant 
in the case of the most egregious and intentional acts. The full range 
of enforcement options for cases of prohibited activities includes:
    <bullet> Requiring corrective action plan;
    <bullet> Disallowing member hours;
    <bullet> Disallowing member education awards;
    <bullet> Recovering unallowable costs;
    <bullet> Conditioning the grant award;
    <bullet> Placing a manual hold on disbursements;
    <bullet> Suspending the grant; and/or
    <bullet> Terminating the grant.
    Additionally, we report instances of prohibited activity to the 
Inspector General who has the option of conducting an independent 
investigation and when the circumstances dictate can refer cases to the 
U.S. Attorney and the Department of Justice for civil action or 
criminal prosecution.
    CNCS can use this range of enforcement tools in dealing with its 
direct grantees. These grantees have the same range of options in 
dealing with their subgrantees, including reporting prohibited 
activities to the agency's Inspector General. Moreover, in the case of 
failure of compliance by a subgrantee, the agency may require its 
direct grantee to take specific actions with respect to the subgrantee.
Accountability and the Recent Incident in New York
    CNCS' policies and culture of compliance dictate that when we 
discover that a grantee or subgrantee has violated the rules, we take 
the matter seriously and act quickly to investigate the situation and 
take the necessary steps to protect the Federal funds with which we are 
entrusted. As you are aware, we recently discovered such a violation.
    On Friday, May 13, 2011, CNCS received a letter from Planned 
Parenthood New York City (PPNYC). At first, this letter appeared to be 
similar to other letters CNCS receives during grant competitions 
expressing support for a particular grantee--in this case, the New York 
City Civic Corps (NYCCC), a sub-grantee of the New York State 
Commission on Volunteering and Service (New York State Commission). 
However, upon closer examination of the letter on Monday, May 16, CNCS 
became concerned that the activities performed by two NYCCC AmeriCorps 
members serving at PPNYC as described in the letter could be prohibited 
advocacy activities.
    Sections 130 and 132A of the National and Community Service Act set 
forth activities that AmeriCorps participants or staff may not engage 
in while charging time to the AmeriCorps grant. While each prohibited 
activity is significant in defining the role of AmeriCorps members not 
just by what they do, but also by what they must not do, the 
prohibitions on certain types of advocacy activity are of particular 
significance considering the level of care CNCS has taken over the 
years to ensure compliance. From the creation of the Corporation in 
1993, CNCS has undertaken several waves of rulemaking (1994, 2002, 
2005, and 2008) to further clarify and strengthen the prohibition on 
certain types of activity set forth in the 1993 Act and in government-
wide rules designed to prevent Federal dollars from being used for 
partisan political activity. In 2009, Congress codified the 
prohibitions originally crafted by the Corporation, including the rule 
set forth in 45 CFR 2520.65(a)(6) prohibiting individuals from 
``participating in, or endorsing, events or activities that are likely 
to include advocacy for or against political parties, political 
platforms, political candidates, proposed legislation, or elected 
officials'' during their service hours.
    The activities described in PPNYC's letter appeared to fit this 
description, and CNCS took immediate action to determine whether the 
members were, in fact, engaged in prohibited activities during service 
hours. Between Monday and Wednesday, May 16-18, CNCS reviewed its 
internal records for information about the approved grant activities 
for NYCCC, the funding history of the organization, NYCCC's placement 
sites, and the service data for the members in question. NYCCC received 
a three-year competitive grant through the New York State Commission to 
use AmeriCorps members to develop sustainable volunteer programs and 
otherwise build the capacity of non-profits in New York City. According 
to the approved grant application, AmeriCorps members selected and 
managed by NYCCC would be placed at one of a dozen or more non-profits 
and city agencies to recruit, manage, and support volunteers working 
towards several of CNCS's strategic focus areas, including education, 
environmental issues, and healthy futures.
    On Wednesday, May 18, CNCS contacted our grantee, the New York 
State Commission, to alert them to CNCS's concerns and to request 
additional information, including position descriptions for the two 
members and further details about the members' daily activities. By 
Thursday, May 19, the Commission had provided the requested documents, 
which revealed that the members, while developing sustainable volunteer 
programs as described in the grant application, were engaged in 
recruiting and training volunteers who would engage in political 
advocacy. After reviewing the information provided, CNCS concluded that 
there was sufficient reason to believe that the members were engaged in 
prohibited activities.
    By noon on Friday, May 20, one week from receiving the letter, CNCS 
called the New York State Commission and requested that it take 
immediate action to ensure that the two members in question were not 
engaged in prohibited activities. Within hours, the State Commission 
confirmed with CNCS that it had reached its own conclusion that the 
members were engaged in prohibited activities, and ensured CNCS that 
the members would not be permitted to further engage in those 
activities.
    That afternoon, consistent with practice, CNCS informed the two 
entities charged with regular oversight of CNCS--the Office of the 
Inspector General and CNCS's Board of Directors--of our concerns and 
actions to date. CNCS has continued to provide both with regular 
updates as the situation has unfolded.
    Over the course of the following week, CNCS worked closely with the 
New York State Commission and its grantee, NYCCC, to resolve 
outstanding logistical questions about the members' service. Both 
members were suspended from service. CNCS informed New York State and 
NYCCC that no costs associated with the members' service at PPNYC would 
be allowed, and that no hours spent engaging in prohibited political 
activity could be counted towards the members' service hour requirement 
to receive an education award. CNCS also informed the members of 
several Congressional committees of the incident and of the way in 
which CNCS was working to resolve it.
    On June 1, the Office of Inspector General informed CNCS that it 
would evaluate the situation to determine whether there had been any 
fraud, waste, or abuse of Federal resources, and to assess CNCS's 
management of the situation. CNCS worked in close cooperation with 
OIG's investigators to provide the requested information. After 
conducting a preliminary review, the OIG reported that it had 
determined it was unnecessary to conduct a full investigation because 
there did not appear to be any fraud, waste, or abuse. Further, because 
OIG approved of the manner in which CNCS was conducting its own 
oversight and was proceeding with respect to disallowing costs, any 
further investigation would be duplicative of the agency's efforts.
    At this time, CNCS considers the situation to be resolved. There 
are no AmeriCorps members currently serving at PPNYC. CNCS has reached 
agreement with New York State regarding the disallowance of costs 
associated with the members. Today, we can provide you with assurance 
that all associated federal funds were protected.
CNCS Looks to the Future--An Action Plan
    In an effort to continuously improve our accountability program, 
CNCS is strengthening existing protocols and instituting new practices 
in the prevention, detection, and enforcement of prohibited activities. 
By early July, we will disseminate clear reminders about prohibited 
activities to all grantees--by conference call and in written 
correspondence--and will add a requirement to program grant provisions 
that all grantees strengthen their AmeriCorps member training on 
prohibited activities. We plan to develop and begin implementation of a 
new required training designed to educate grantees on prohibited 
activities and disseminate best practices for the prevention, 
detection, and enforcement of such activities. This information will be 
shared again at the AmeriCorps annual grantee training meeting in 
September that all grantees are required to attend.
    We intend to require grantees with subgrants to submit a monitoring 
and oversight plan and certify, on an annual basis, both an 
understanding of and adherence to agency regulations on prohibited 
activities. The plan must detail how the grantee will ensure that sub-
grantees and service sites comply with all relevant grant requirements. 
Agency staff is also currently reviewing the program's risk assessment 
model and sampling methodology and will identify enhancements by August 
2011.
    We also will provide information to AmeriCorps members more 
directly by listing all prohibited activities on the AmeriCorps 
website, in the descriptions of AmeriCorps member opportunities, in the 
application, and in the welcome letter from the Director of AmeriCorps 
following admission to the program. By late July, all program officers 
and grant specialists will receive refresher training on prevention, 
detection, and enforcement protocols.
    We look forward to working with this Committee and will be prepared 
to report on our progress in implementing this Action Plan in 90 days.
Conclusion
    In closing, I think it is clear that CNCS shares the Committee's 
concern about the importance of accountability in national service and 
about preventing prohibited activities. I hope my testimony here has 
reassured you of CNCS's dedication to its work in this area.
    There is no reason for the incident in New York to diminish in any 
way the tremendous and critical service being rendered by tens of 
thousands of dedicated citizens serving in AmeriCorps and other CNCS-
supported programs. Our quick, action-oriented response to the 
situation in New York City led to a prompt and complete resolution. Our 
quest for continuous improvement has led CNCS to develop an action plan 
that will enhance our accountability program.
    If we are to meet the challenges in our communities, it will take 
the active engagement of our fellow citizens who raise their hands to 
say that they want to help. That is what national service is all about.
    Thank you again for the opportunity to be here today.
                                 ______
                                 
    Chairwoman Foxx. Thank you very much, Mr. Velasco.
    I am going to begin the questioning, and we would 
appreciate as short answers as you can possibly give us to 
speed us along. I want to give time to each one of the members 
who have shown up today.
    Could you tell us, first, how many monitoring visits the 
Corporation completes to grantees per year, and a little more 
in detail how you decide which site to visit, which sites not 
to visit. And do you know how many visits grantees made to 
subgrantees last year?
    Mr. Velasco. Thank you for that question, Chairwoman Foxx.
    We have a robust monitoring and assessment program at the 
orporation and, annually, we receive financial and program 
reports from each of our grantees. Those reports are reviewed 
on an annual basis. They take a look at consideration with 
regards to organizational capacity, program design, financial 
accountability, and compliance.
    And so based upon that assessment, then grantees are 
identified for on-site monitoring. That gets put into an annual 
monitoring plan, and we average about 30 percent of on-site 
monitorings. When you compare us to other small independent 
federal agencies, that is a higher baseline than the majority 
of other agencies comparable to the Corporation.
    Chairwoman Foxx. What would flag the need for a visit from 
a written annual report?
    Mr. Velasco. It would be an accumulation of areas to assess 
across that spectrum of either organizational capacity, 
financial accountability, program design, or compliance. And so 
if there are--if we are seeing any areas that we are concerned 
about in those particular categories or several of those 
categories, then that would raise it to our attention to put on 
an annual monitoring plan.
    Chairwoman Foxx. If we have time I want to come back to 
that in a minute. But how many times has the Corporation 
imposed and enforced financial penalties or grantees or 
subgrantees over the last year.
    Mr. Velasco. We have imposed financial--we have disallowed 
funding based upon reviews that we have undertook. I believe in 
the last several years it has totaled more than $4 million.
    Chairwoman Foxx. Four million dollars out of $1 billion.
    Mr. Velasco. Four million dollars in the last several 
years.
    Chairwoman Foxx. In the last 4 years.
    Mr. Velasco. In the last several years.
    Chairwoman Foxx. Several years, okay. Well, AmeriCorps has 
indicated that it plans to increase its total number of 
participants to 250,000 within the next couple of years. Now 
there are 80,000 to 90,000 participants already enrolled. How 
do you expect to properly monitor 250,000 people, when it does 
not appear as though we have been able to stop prohibited 
activity from a much smaller group?
    Mr. Velasco. Well, we believe that we have strong and 
robust monitoring and oversight tools in place. And we recently 
also developed a data system that is actually helping us 
identify where our members are placed across the country. As 
you mentioned, we have over 80,000 members in AmeriCorps at 
14,000 placement sites across the country.
    And for this year, for the first time, we are actually able 
to collect data with regards to the actual placements of all of 
the AmeriCorps members. We have a history of continuous 
improvement with regards to oversight and monitoring, and so 
the data with regards to placement is just another example of 
being able to kind of continue to improve those monitoring 
tools, as well as the action plan that we have developed that, 
from this particular incident, is putting activities in place 
and strengthening our protocols in the areas of prevention, 
detection and enforcement.
    Chairwoman Foxx. How many people do you have operating your 
monitoring system? What is the number of people who are looking 
after the programs and holding them accountable, and where are 
they based?
    Mr. Velasco. We have employees both employees both here 
located in Washington, D.C., and in 50 states across the 
country. Our program officers have responsibility for review of 
organizational capacity and program design. And our grant staff 
has responsibility for the financial compliance. And so they 
work in tandem together with regards to reviewing the total 
picture of capacity of grantees.
    Chairwoman Foxx. How many people in Washington, how many 
people in the field?
    Mr. Velasco. It is probably about--I can get you specific 
numbers. It is about a 55-45 split. We have more staff out in 
our field across the 50 states, and the smaller amount, the 
difference here, in headquarters.
    Chairwoman Foxx. Thank you. I have a little time left.
    But I am going to try to be a good role model and recognize 
Mr. Hinojosa for his questions.
    Mr. Hinojosa. Thank you.
    Mr. Velasco, thank you very much for testifying before our 
committee. Both our Democratic members and our colleagues on 
the other side take very seriously our role of oversight over 
federal agencies. And listening to the questions of the chair, 
I could not help but try to figure out in my mind what $4 
million out of $1 billion would be in terms of a fraction.
    Because in the previous administration, in 8 years, we had 
a huge number of people to do oversight on environmental 
protection problems. And I think we have two cases filed in the 
8 years. So when I make comparisons of another agency versus 
yours, I think that you all are doing a remarkable job.
    What percentage of the $4 million have you recovered?
    Mr. Velasco. The entire $4 million has been recovered, yes, 
sir.
    Mr. Hinojosa. It has all been recovered?
    Mr. Velasco. It has all been recovered.
    Mr. Hinojosa. Excellent. Can you walk us through your grant 
structure, and what it means for monitoring and oversight?
    Mr. Velasco. Yes, sir, I would be happy to. We have a grant 
structure that is multi-layered. It is a model based upon the 
legislation that reflects the shared accountability at the 
federal level, the state level, and the community level. The 
Corporation has responsibility for federal funds.
    We provide direct grants to state commissions. State 
commissions then hold competitions to some grantees, and some 
grantees then make decisions based upon local community needs 
as to where those members should best be placed. And so the 
model is a model that really maximizes the flexibility of State 
and local communities but, certainly, it is a model of shared 
accountability where we all have a role in that system.
    Mr. Hinojosa. I am proud to be one of many champions in 
Congress for the AmeriCorps program. And I was very impressed 
by the 80,000 AmeriCorps members, and some of which were 
reporting immediately upon Joplin, Missouri being impacted as 
they were.
    And it was amazing to me to see how those AmeriCorps 
volunteers, arriving at 2:30 in the morning in Joplin, were 
able to set up a call center and be able to recruit volunteers, 
figure out and set up a program in which they could immediately 
go to work, and give help to the citizenry of that whole 
region.
    They are absolutely amazing. In my area, which is made up 
of about 90 cities, much of it being rural, we depend on some 
of these AmeriCorps volunteers who come into our area and help 
us close the gap in education, the gap in jobs in terms of how 
much they earn, and so forth.
    So they are an extremely important group that helps us 
organize millions and millions of people. And so I want to do 
everything I can that this hearing have a record of the 
benefits that our country is receiving. Because the federal 
government cannot possibly do the work that they organize to 
get done, because we could not afford it in the the federal 
government.
    So what has your inspector general said regarding your 
response to this incident that we have learned about in New 
York?
    Mr. Velasco. Let me share with you that we have a strong 
working relationship with our inspector general. We believe in 
the important role of the inspector general, and having a 
strong inspector general. We have notified our inspector 
general immediately as soon as we identified, in this 
particular situation, that there is a prohibited activity.
    We apprise them with regards to the progress that had been 
made all the way up to the suspension, and then ultimate 
removal, of the members providing that specific service, and 
have kept them apprised along the way. My perspective, from a 
conversation with the inspector general, is, they believe we 
have taken the appropriate action in this particular matter.
    Mr. Hinojosa. Thank you for your leadership, and all of 
your administration, for the work that you all are doing. And I 
applaud you. I want to be very supportive so that you all can 
continue doing this kind of work.
    And with that, Madam Chair, I yield back.
    Chairwoman Foxx. Thank you, Congressman. Thank you, Mr. 
Hinojosa.
    Mr. Grijalva, do you have any questions you would like to 
ask the witness?
    Mr. Grijalva. Yes, thank you very much.
    Thank you, sir, for being here. It seems that the focus on 
the two or three cases where the activities may have been 
prohibited, or were prohibited, is hugely overblown. First, the 
issues were resolved completely without any cost to the federal 
taxpayer.
    And secondly, these three individuals were in the 
AmeriCorps program of over 70,000 volunteers. And so I think it 
is important that we focus on the benefits of the program, as 
well. The 5 million volunteers, the tens of thousands of faith-
based and community-based organizations in all 50 states that 
receive the support.
    And at a time, sir, when we are talking about increased 
cuts in programs, where agencies across the board, both local, 
state, and federal are being asked to do more with less, and 
certainly constituencies that need the help the most, those 
programs are being cut. And now we are also calling into 
question the validity of volunteers to be able to go in and 
fill the gap.
    It seems to me that you cannot have the argument both ways. 
Is it a question of no service at all to these people, or is it 
a question of taking two or three cases, overblowing them, and 
calling into question the validity of a program that has a 
wonderful track record?
    So let me ask you, how will the funding cuts to your 
program, and the potential cuts next year, affect your ability 
to review the kinds of cases where prohibitive activities may 
take place?
    Mr. Velasco. Effective monitoring and oversight requires 
sustained resources to ensure that we have the modernization 
for our systems, to be able to ensure that we are able to 
provide the training internally and externally to our grantees, 
as well as to make sure that we are able to maintain the 
personnel to conduct the assessment and the monitoring reviews.
    Mr. Grijalva. So the cuts would affect that.
    Mr. Velasco. Cuts would dramatically affect that, yes, sir.
    Mr. Grijalva. I think in 1993, that authorization, the 
Republican majority insisted that the nationals that have a 
role in messaging what happened, and that we work through state 
commissions to fund them so they would have their competition 
for which community-based organization or faith-based that got 
the support.
    And I think that created an additional bureaucratic layer 
to go through. And I wonder if maybe, in terms of the 
monitoring that it being asked about and questioned today, if 
it is not wise to for this committee to rethink that indirect 
funding and go more directly so the accountability is fully on 
the agency.
    I just want to thank you in behalf of communities in my 
district, Somerton, a farm worker community, Sells that is on 
the O'odham Reservation, Tucson, and Pima Community College for 
the work that volunteers have done in those communities to fill 
in gaps on issues of literacy, homelessness, child care, and 
the instruction of English to residents of those areas.
    So I do not have any further questions. I join with the 
ranking member in applauding what you are doing. And I would 
urge this committee. Let us not overblow two incidents that 
have been dealt with, and deal with the merits and the 
overwhelming benefits that the program produces. And perhaps 
concentrate on how we can make this program more effective, 
stronger, and able to serve more people than it does now, 
rather than beat a dead horse on two issues that have already 
been resolved.
    And with that, I yield back, Madam Chair.
    Chairwoman Foxx. Thank you very much, Mr. Grijalva.
    Mr. Hanna?
    Mr. Hanna. Thank you, Madam Chairwoman. I would like to 
yield my time back to you.
    Chairwoman Foxx. Thank you very much. I do have another 
question I would like to ask, and I appreciate the gentleman 
from New York yielding me his time.
    The law that passed last Congress requires the Corporation 
to evaluate the impact, or effectiveness, of the programs. And 
I am trying to figure out how you are going to have information 
on the Corporation's effectiveness if you do not know what the 
individual participants are really doing.
    Can you elaborate on how the Corporation is able to 
evaluate the effectiveness of each of the grants that you 
award? As you mentioned earlier that you want to be 
accountable, tell us what are we getting for the money that we 
are taking from the taxpayers and giving to you and your staff.
    Mr. Velasco. I appreciate that question, Chairwoman. We are 
moving forward with the implementation of the Serve America 
Act. And one example is a strategic plan that we have put in 
place, which has asked us to develop performance metrics to be 
able to assess the impact of the work based upon the federal 
investment.
    We have already implemented a performance measures pilot, 
and will be looking at that data to review the effectiveness of 
the federal investment with grantees in this kind of shared 
model that we have with our partners at the state and local 
communities.
    Chairwoman Foxx. So up until now, you have had no 
evaluation of the programs. Is that correct?
    Mr. Velasco. We have had ongoing evaluations of the 
programs, both through evaluations that we have conducted as 
well as general monitoring assessments and independent reviews 
from our inspector general.
    Chairwoman Foxx. Basically, those would be are people 
spending the money the way they say they are spending the 
money? Is that what you call evaluation?
    Mr. Velasco. There areare evaluation studies regarding the 
research and evaluation, regarding the impact of the work. Our 
IG reviews would provide information in terms of the 
effectiveness of the use of the money. And then our grant and 
monitoring assessments would also provide some sense about the 
capacity and execution of how our grantees are operating and 
functioning.
    So I think those would be like three different vignettes of 
how we would be able to assess and have information regarding 
the federal investment.
    Chairwoman Foxx. When you say you have got a performance 
measure pilot, how many people are being affected, or how many 
participants? How many recipients of dollars are a part of that 
performance measure pilot?
    Mr. Velasco. The performance measure pilot was initiated 
last year, with a notice of funding for AmeriCorps. I do not 
have specific numbers, but I could provide that to you.
    Chairwoman Foxx. I would really like to know a lot more 
about your evaluation, and how you are evaluating specifically 
effectiveness. Again, what are the taxpayers getting for the 
money that is being given to you, to the corporation, and to 
the individuals who are called volunteers, but are being paid 
to be volunteers?
    Specifically like to know exactly what they are doing, and 
what benefit is coming to the taxpayers as a result of that.
    Mr. Velasco. Certainly. So we engage more than 5 million 
Americans in volunteer services that engage more than 70,000 
organizations across the country. We both provide sustained 
service on the ground, and then our members are also able to 
provide direction and mobilize additional volunteers to provide 
assistance to food banks, homeless shelters, senior homes, 
youth centers, schools.
    So those are the types of services that we provide.
    Chairwoman Foxx. Just very quickly, do you know what an 
average AmeriCorps volunteer costs the taxpayers of the United 
States? What does an average AmeriCorps volunteer cost?
    Mr. Velasco. I could provide that information to you.
    Chairwoman Foxx. Mr. Velasco, you should be able to answer 
that question today. Thank you.
    I would now like to invite Mr. Tierney to ask his 
questions.
    Mr. Tierney. Thank you, Madam Chair.
    You know, I think we ought to have some sort of an 
oversight or monitoring of this committee, or this 
subcommittee. When we are not busy having duplicate hearings 
about duplication in the workforce investment, which we 
apparently want to disinvest from so people will not have the 
skills to get the work, now we are going to bring in a new 
appointment here and beat him up for doing such a great job. So 
I would like to know what that costs the taxpayer, and how much 
we are getting for our taxpayers' money on that.
    But rather than keep repeating what a wonderful job the 
organization is doing, and making note of the fact that this 
bill, the Edward M. Kennedy Serve America Act, passed with 
overwhelming majorities in both the House and the Senate when 
it was passed, and a lot of this examination about its purpose, 
its reason for existing, the manner in which it functions, the 
number of people which it serves, and the number of people that 
served as volunteers were all examined in the context of 
passing that legislation.
    And now it looks like probably some are having second 
thoughts. And if we want to talk about it, taking Mr. 
Grijalva's comments, now we are having second thoughts because 
Planned Parenthood was involved in one of these incidents where 
somebody might have violated one of the terms of the statute on 
that. So it is ideology. Here we are.
    We are going to go around and around and around and see if 
that strikes a chord with some small sector of this society. It 
is not a case of rampant lack of oversight. It is not a case of 
rampant lack of enforcement. Mr. Velasco, I think you did know 
the information that would be expected to be asked at this 
hearing. You did not have the granular level on one issue, and 
I suspect you will get that on that basis.
    But if the Chairwoman wanted to take the time in her 
district to stroll out of her office, where would she go to see 
some cases of people being served in this country by 
volunteers. Does she go to a food pantry, and see where people 
are benefiting from that?
    Mr. Velasco. Yes, sir.
    Mr. Tierney. Would she find anywhere where they were 
mentoring children, perhaps?
    Mr. Velasco. Yes.
    Mr. Tierney. Thank you. Give me some other examples. I 
cannot escape it. When I leave my district office, I bump into 
it everywhere I go. And I see both the volunteers are getting 
an enormous benefit out of that in their lives, and I see out 
of work people, I see seniors, I see children getting benefits 
that they otherwise would not get.
    And I think that inures to the benefit of them, and to us, 
you know, as taxpayers on that. So give us a few examples of 
what the chairwoman could expect if she strolled out.
    Mr. Velasco. Thank you, Congressman. I would say that there 
is a critical investment that is being made in national 
service. And it helps to tackle tough problems locally, on the 
ground. It transforms those individuals who serve, and adds 
unique value to nonprofits.
    As I mentioned earlier, we engaged over 5 million Americans 
just in this past year in results-driven service within their 
own communities and across the country. We support America's 
civic infrastructure, food banks, homeless shelters, senior 
homes, youth centers, schools.
    We also generate more than $800 million in non-CNCS 
funding. So as you know, this past year the federal investment 
was over a billion dollars. And from that seed, we were able to 
generate an additional $800 million to support the investment 
in national service in local communities across the country.
    We have placed tutors and mentors and assistants in 
schools, in low-performing schools. And as the congressman 
mentioned earlier, we provide disaster relief services with 
tornadoes and floods across the country. I was recently in New 
Orleans working side-by-side AmeriCorps members creating a safe 
space for children to play in a neighborhood that was just 
being revitalized.
    I witnessed AmeriCorps members rebuild a home for a family 
who is returning for the first time for Katrina, back to their 
neighborhood. And the service that they are doing is just 
inspirational, the service that they are offering both to 
others and to their country.
    Mr. Tierney. Are you aware of any systemic problems in the 
agency, where there is just rampant violations of statutory 
obligations of the rules and regulations?
    Mr. Velasco. No, sir, I am not. I believe we are a well-
managed organization.
    Mr. Tierney. And have you had any allegations to that 
effect, that there is a systemic problem or multiple incidents 
that are of such magnitude that it needs the attention of this 
committee?
    Mr. Velasco. No concerns of systemic magnitude.
    Mr. Tierney. So you had this incident, the ideological 
situation we have going there. And you immediately reported it, 
right?
    Mr. Velasco. That is correct, sir.
    Mr. Tierney. You had your IG work with you, your inspector 
general.
    Mr. Velasco. And the IG of this committee.
    Mr. Tierney. He said you handled it properly, did he not?
    Mr. Velasco. Yes.
    Mr. Tierney. Said that the matter was fully resolved, that 
you were moving to protect the federal resources. And you have 
a 100 percent record of getting back the $4 million that you 
want to withdraw in other incidents that you have enforced on.
    Mr. Velasco. Yes.
    Mr. Tierney. Thank you. I am sorry we are wasting your time 
here today.
    Chairwoman Foxx. Thank you, Mr. Tierney.
    I would now like to recognize Dr. Roe.
    Mr. Roe. You must be really thirsty this morning. I notice 
they have got you enough water to drink there. Must have been 
expecting a tough hearing.
    I want to start out by saying that I have been through the 
AmeriCorps programs, many of them, in my district. It is 
Appalachia Cares in northeast Tennessee in the mountains. And 
there has been some really good work done there by AmeriCorps. 
We just were devastated by tornadoes recently, and not just 
AmeriCorps but we had huge volunteers from everyone.
    But that program has helped. And certainly I was not here 
to hear the testimony on the problems, but I did want to tell 
you there are some good things in my district that have 
occurred. It is fair you have oversight, and it is fair to ask 
questions. And I think about these, and I think from your 
standpoint you would want those problems resolved and solved.
    It is a blight on you and your program when something does 
go awry. So having said that, I know I asked this 2 years ago 
and I am still, as a former mayor, we had special 
appropriations in our budget where we would fund various non-
for-profits out of our city budget. Including cuts from HUD 
that we have funded from our city budget locally.
    But the question I had 2 years ago, and I have still got 
it, is, and I do not know, I have not gone through it and I 
should have called you about it before this. But the National 
Civilian Community Corps, it just seems like that is a lot of 
money. We had a couple of programs locally in our city when I 
was mayor, and it was so much more expensive to do this program 
than it was another one.
    It did not seem cost-effective. And then we are spending 
$29 million on approximately 1,000 people. That just seems to 
me to be a lot of money. I think if you look at AmeriCorps, if 
we spent it in a different way you would get more bang for the 
$29 million.
    Can you tell me what that is spent for? I remember 2 years 
ago when it was explained to me and it did not make any sense, 
and I would like to hear it again.
    Mr. Velasco. Certainly. Be happy to. NCCC is a residential-
based program for volunteers. And so it offers a different 
model that AmeriCorps, which is usually more place-based to the 
particular site over a period of time. The model for NCCC is 
that it is a residence-based program, and so it is team-driven 
and the volunteers actually work in short-term deployments 
anywhere across the state, the region, across the country.
    And so they have a lot of flexibility and adaptability to 
be able to be deployed immediately to provide service or 
assistance anywhere across the country. In fact, the NCC Corps 
is a prevalent in providing most of the disaster relief that we 
are seeing across the country because of their nimbleness and 
ability to really be deployed to a particular situation at a 
particular time.
    Mr. Roe. So basically what you are doing with them, it is 
$29,000 a person. I mean, that is how much you are spending if 
it is 1,000 people and you are spending $29 million. But the 
reason, you are saying, is because they are not in a local 
community like where I am. But these are folks that may come in 
from the outside and have to be put up in a hotel, or wherever 
you put them up in.
    Mr. Velasco. There are five campuses across the country, 
and so their home base is at the resident facility, where they 
work as teams. And then they receive training there, and then 
they are deployed to different sites for particular periods of 
terms.
    Mr. Roe. Okay. I guess maybe what I would look at is, if 
you are going to use this $29 million, it looks like you could 
just maybe move some current people. We do that at home. We 
have interoperation agreements with fire departments between 
communities, where one fire department, instead of them having 
to have extra when a catastrophe occurs we just help them.
    And I wonder if it would not be better to look at something 
like that, where you could maybe use the $29 million to have 
more people actually in the program. I would like you to look 
at something like that. I mean, like let us say there was a 
flood in west Tennessee. We have got people live in east 
Tennessee and there is no disaster, we could move some people 
down there temporarily, not have them housed all the time.
    I would simply look at that, and see if you could use those 
funds more effectively. But I understand it better now.
    Madam Chairman, I have no further questions.
    Chairwoman Foxx. Thank you, Dr. Roe.
    Mr. Miller?
    Mr. Miller. Thank you very much, Madam Chair.
    Director, thank you very much for coming this morning. 
Sorry I missed your opening statement. I have read it, and I am 
a little bit at a loss kind of why we are here. But I guess it 
appears that some of this is about the two incidents that 
others on the committee have referred to, one in New York and 
one in Washington.
    But when I go through the timelines and the discussion of 
it, it appears that you dispatched both of those incidents on a 
rather timely basis. One of the members asked you, the 
inspector general seemed to agree with that. Is that correct?
    Mr. Velasco. Yes, that is correct, sir.
    Mr. Miller. Okay. So I guess we are here to discuss the 
program. I am kind of the school of Mr. Tierney here. You know, 
my contact with the corporation is obviously the volunteers 
that have been in our community that not only just provide 
their resources, but seem to also be somewhat catalytic in 
terms of their ability sometimes to organize local 
organizations that are not doing that well, are not really 
performing at their maximum.
    But by having a full-time person there, they seem to sort 
of be value-added, if you will, to those mechanisms. I know 
when the recession hit us very hard, and the food banks and the 
food distribution programs around our area, they were very 
helpful there. I watched them help sort of manage the in and 
out of the volunteers in Habitat for Humanity on a number of 
projects that we have had that have been very important to the 
neighborhood revitalization.
    Very successful but, again, having that person there on a 
constant basis as opposed to people who, making every best 
effort to show up at different times, that does not always 
happen with the all-volunteer organizations. And so you keep 
continuity in terms of projects being on time.
    My staff and myself, have worked in these projects, when we 
are home. And you can just see how important that is. And I 
think, again, most of the experience with Habitat, when 
suppliers and others are volunteering their time, their 
materials, just like any building project, having a schedule is 
very important for when people are dropping them off and being 
able to utilize them so then the next weekend you can get to 
the next stage of that project.
    So the experience has been very good from my side, so I 
just want to say that. I do not know if this hearing is going 
on to some other part of it, there is some problem with it. I 
have been through, back in the 1980s, when there was a very 
clear effort to try to destroy the various national volunteer 
organizations and programs that were going on. And it was a 
very contentious set of hearings.
    At the time, they were being attacked because they were 
very effective. They were organizing poor people to become 
consumers and participants in their communities, and to 
participate in civic life. And they were attacked because they 
were, in effect, effectively organizing. But I guess this is 
different here.
    I do not know what we are doing here this morning, but 
anyway I just want to say that I appreciate the work of the 
corporation in our local area, certainly my congressional 
district, but in other areas around the San Francisco Bay area, 
where we have found them to be very, very helpful in developing 
additional community resources and keeping those resources 
attentive to the projects that they have undertaken. So thank 
you very, very much.
    I yield back the balance of my time.
    Chairwoman Foxx. Thank you, Mr. Miller.
    Dr. Bucshon?
    Mr. Bucshon. First of all, thank you for coming. I just 
want to make a couple of comments about why we are here today. 
I mean, I think being new to the Congress, it is pretty clear 
to me. You know, we have an oversight role. And I think if 
there are concerns about how organizations like yours are 
functioning I think it is fair to bring those questions to 
light.
    And we may very well decide, based on your testimony today, 
that we do not necessarily find any major reasons to be 
concerned. But unless we ask the questions, we may not ever 
find that out. So I would say that it is fair to ask these 
questions, and we really appreciate your comments.
    And as far as your monitoring plans going forward, can you 
just outline? Have you had to make any changes or any 
improvement in the way you monitor things that happen within 
the program as a result of these recent incidents?
    Mr. Velasco. Yes, sir. Thank you for that question. We have 
a robust monitoring and oversight program at the Corporation, 
but we also have a spirit of continuous improvement. And from 
this particular incident, what we have done is we have put 
together an action plan that is going to be putting in some 
activities in place in three different areas, prevention, 
detection, and enforcement.
    So in prevention, we are going to be developing mandatory 
training for all of our grantees, specific on prohibited 
activities. We are also going to be communicating directly with 
our members to define prohibited activities more explicitly, to 
communicate and provide examples of what that means, and to 
communicate the requirements for compliance and the tools 
available to us for enforcement when those rules are violated.
    With regards to detection, as I mentioned we have a new 
data system that is allowing us to look at placements. And so 
we will be doing some reviews of placements based upon the data 
from that system. We are also going to be using a sampling 
methodology to look at member position descriptions of 
organizations.
    And lastly within detection, we are also going to be adding 
a new component to our monitoring protocol that is specific to 
prohibited activities. We are going to ask all of our grantees 
to, annually, assure the activities that they are undertaking 
with regards to prohibited activities within their 
organizations.
    And then lastly in enforcement, we are going to be 
providing training both externally to our grantees as well as 
internally to our staff with regarding the spectrum of tools 
available to them, from corrective actions to suspension or 
termination.
    Mr. Bucshon. Thank you, and I yield back the balance of my 
time.
    Chairwoman Foxx. Thank you, Dr. Bucshon.
    It appears that all of our members have had an opportunity 
to ask their questions, so I would like to thank Dr. Velasco 
for taking the time to testify before the subcommittee today.
    Mr. Hinojosa, do you have any closing remarks?
    Mr. Hinojosa. Yes, Madam Chair. I would like to say, as we 
draw this thing to a close, that I could not help but listen to 
members on my side of the aisle, and agree with something my 
mother used to tell me. And that is that when they give you a 
lemon, make lemonade out of it.
    This is an opportunity to put into the record those of us 
who are old enough to remember the damage done in 1967 by 
Hurricane Beulah in deep South Texas from Brownsville to Corpus 
Christi, an area that was extremely poor, neglected by the 
federal government like very few regions of the country had 
been neglected.
    And see that we did not have the kind of volunteer 
organizations like yours that can organize and recruit, and be 
able to get volunteers who want to help but nobody to put them 
together. And we see the tragic tornadoes that killed 150 
persons in Joplin, Missouri. And again, your organization 
versus what I described in 1967, now with your help we were 
able to respond immediately to help them out.
    I was set back, my region was set back, 20 years by the 
flooding and the tornadoes of 1967 that came after Hurricane 
Beulah hit us in our area. So I recognize the importance of 
your corporation and the different groups that are being put 
together to help us throughout the country.
    So I greatly appreciate your testimony today, Mr. Velasco. 
And, as ranking member of this committee on higher ed and 
workforce training I look forward to working with you and your 
staff to advance CNCS's mission and goals. National Service 
programs are truly a part of our nation's history, democracy, 
and civic life, an we hopefully will use this record to 
increase your funding and to increase the numbers of volunteers 
that come from your program.
    And with that, I yield back.
    Chairwoman Foxx. Thank you, Mr. Hinojosa.
    I want to thank Dr. Bucshon for saying specifically, and 
reminding people on this committee, that we are an oversight 
committee. Every committee in Congress is an oversight 
committee, and a major part of our responsibility is to talk to 
the groups for whom we are responsible to make sure that they 
are doing their jobs properly.
    I do not think Congress spends enough time, frankly, on its 
oversight function.
    Mr. Tierney. Does the gentlewoman yield?
    Chairwoman Foxx. No, we are at the end.
    Mr. Tierney. Why have a discussion then?
    Chairwoman Foxx. Okay. And I think that it is very 
important that we do that. I have noticed that you have the 
right language down, you have robust monitoring, and an 
oversight plan. And we want to make sure that we understand 
that robust monitoring and oversight, again, since it is part 
of our responsibility.
    I often wonder about how we got to be such a great country 
before the 1960s, when so many government programs came into 
existence. And I do not have the citation on it, but I read 
recently a comparison of the recovery from the Johnstown floods 
in the early 1900s.
    And Mr. Hinojosa's comments made me think about that, and 
how much more quickly that area of the country recovered when 
there was not a single federal government program there to 
help. But volunteers and the people there managed to do it.
    I am going to search for that citation, but it was 
comparing what happened with Johnstown and what has happened 
since the federal government got involved with volunteers and 
with FEMA. And the evaluation was not very good about it. I do 
think that the programs in your jurisdiction do some good 
things.
    But as I said to you before, it is our responsibility to 
make sure that the money that we take from hardworking 
taxpayers is spent effectively and efficiently. And I think not 
about the people who are being paid by the government to be 
volunteers every day. I think about people who are out working 
in factories who are doing their best to do what they are 
supposed to do.
    They are paying their taxes, they are working very hard, 
and we are taxing them at a very high rate to put other people 
to work. And I think it is our responsibility to make sure that 
if we are going to take money from hardworking Americans that 
that money is being very, very well-spent.
    And I think that is the responsibility of this committee 
and all our committees in Congress, and that we are being held 
to be accountable even more so by the American people under 
these really tight financial times. We should always be held to 
a strong level of accountability, but particularly now.
    And I thank you and the members of your group for wanting 
to work with us. I do know, however, that despite the fact that 
this was reported to the IG and that you took action, you did 
not have a plan to discover this yourself. And that is part of 
your responsibility.
    I also find it very curious that it takes episodes like 
this before most government agencies begin to look at 
evaluation and to look accountability. It seems to me that 
there needs to be a mindset within the federal government that 
any time you are given a dollar you are going to produce, for 
the American people, a dollar's worth of value for it.
    It is usually after something has happened before the 
bureaucracy decides to get engaged and start to do something 
about it. I hope that by having hearings like this we will send 
a message to other agencies in the federal government that we 
are not waiting until we have a violation of the law before we 
start looking at measures of accountability.
    Mr. Tierney. Madam Chairwoman, I ask unanimous consent to 
speak out of turn for 1 minute.
    Chairwoman Foxx. I would be happy, Mr. Tierney, to talk 
with you afterwards. Thank you very much.
    Mr. Tierney. Wait a minute. So you are denying that 
request? You are objecting? You just went on and on and on with 
this whatever you want to call your dialogue there for a 
minute. You will not give 1 minute to another member of the 
subcommittee?
    Chairwoman Foxx. Mr. Tierney, you had your time to speak.
    Mr. Tierney. And you had yours, over and over again. Now, I 
am asking you----
    Chairwoman Foxx [continuing]. As you know----
    Mr. Tierney [continuing]. The committee, unanimous request 
to just allow me to speak for 1 minute.
    Chairwoman Foxx. I will give you 1 minute, and it will be 1 
minute.
    Mr. Tierney. Oh, I am sure it will.
    First of all, we all should do oversight on these 
committees. We should choose the groups to oversee where there 
is a real problem, not where you have some ideological bent or 
somebody has an ideological bent about one particular agency, 
whatever, that happen to be peripherally involved.
    We all believe in oversight. Let us do it right, and let us 
do it where it really matters. And let us not do it for the 
wrong reasons. And secondly, when you take your waltz back in 
history you might remember that before the government got 
involved we did not have the kind of public health aspects that 
we have today that keep healthier longer.
    We did not have electricity in many rural parts of the 
country. We had abject poverty in many, many regions of the 
country. So I just hope that maybe you go back to your history 
books and take a look at that, as well, so the next time we get 
a lecture on things of that nature we will realize that as a 
group, as a country, we do many good things together.
    As a government, we do many good things as the people who 
elect that government. And let us get away from the self-
loathing, which is what we essentially do when we attack 
government and say that it cannot seemingly, in some people's 
eyes, do anything right. And understand that Mr. Velasco's 
organization is one of those groups that are doing things 
extraordinarily right and serving a lot of people in this 
country, and we all benefit from it.
    Thank you.
    Chairwoman Foxx. Thank you. And you were right on time.
    This hearing is adjourned.
    [The statement of Mr. Loebsack follows:]

     Prepared Statement of Hon. David Loebsack, a Representative in
                    Congress From the State of Iowa

    I wholeheartedly agree that any misuse of federal funds is 
extremely concerning, no matter what agency we are talking about. 
Especially in such difficult budget times, this is not an issue to be 
taken lightly. It is extremely important that any evidence of 
misconduct on the part of subgrantees from CNCS be addressed swiftly 
and fully and that every possible measure be taken to prevent similar 
incidents from occurring in the future.
    However, I think it is also disingenuous to claim that this error--
which needs to be remedied--is a reflection of the work of the 
Corporation for National and Community Service as a whole.
    I have seen firsthand the great work that Americorps volunteers 
have done in my district. In 2008, my district was hit by the worst 
natural disaster in the state's history. Severe flooding destroyed 
homes and businesses, and I am so grateful for the Americorps members 
that came to Cedar Rapids and other flood-affected areas immediately 
after the disaster hit.
    In the aftermath of the emergency, they were there helping to meet 
people's basic needs and they continue to work in the area rebuilding 
homes, coordinating volunteer efforts, and revitalizing local community 
organizations. To date, about 2,800 Americorps members have volunteered 
to help with the flood recovery effort and over 200,000 Iowans have 
helped with disaster recovery since 2008.
    Iowans owe a debt of gratitude to Americorps, VISTA, and NCCC 
members who have worked so hard for our communities, so I don't want 
anyone to forget all of the good work that they do to help us respond 
to and recover from natural disasters, wherever they may occur.
    The Serve America Act is one of the votes that I'm most proud of in 
my time in Congress. I myself grew up in poverty and I wouldn't have 
made it to where I am today without the help and support of people in 
my community. Initiatives like the Volunteer Generation Fund--an 
amendment to the Serve America Act sponsored by Senator Hatch and 
myself--and the other CNCS programs make it possible for more people to 
serve their communities, which is especially important in these tough 
economic times when local budgets are stretched so thin.
    I am fortunate to come from Iowa, where civic engagement and a 
strong sense of community are the norm. In fact, Iowa is second in the 
nation for volunteerism. I believe that national and community service 
programs are vital to supporting Iowans' and the nation's commitment to 
service and serve an important role in ensuring our communities are 
great places to live and raise a family.
                                 ______
                                 
    [Questions submitted for the record and their responses 
follow:]

                                             U.S. Congress,
                                      Washington, DC, July 8, 2011.
Mr. Robert Velasco, II, Acting Chief Executive Officer,
Corporation for National and Community Service, 1225 New York Avenue, 
        Washington, DC 20525.
    Dear Mr. Velasco: Thank you for testifying at the Subcommittee on 
Higher Education and Workforce Training hearing entitled, ``Demanding 
Accountability in National Service Programs,'' on June 23, 2011. I 
appreciate your participation.
    Congressional oversight is critical to ensuring taxpayer dollars 
are being spent appropriately. To that end, committee members request 
your response to the enclosed questions. Please provide written 
responses no later than July 29, 2011 for inclusion in the official 
hearing record. Responses should be sent to Mandy Schaumburg of the 
committee staff who may be contacted at (202) 225-6558. After receiving 
your responses, committee members will review the answers and pose any 
additional questions they may have.
    Thank you again for your contribution to the work of the committee.
            Sincerely,
                                 Virginia Foxx, Chairwoman,
           Subcommittee on Higher Education and Workforce Training.
                        questions for the record
    1. What key elements of the Corporation's monitoring plans will 
help you identify problems in the future?
    2. In your written testimony, you mention that grant applications 
specifically require grantees to describe how they will ensure 
compliance with the prohibited activities. How does that response 
factor in to the awarding of grants? If a poor answer is provided on an 
otherwise good grant application, what additional steps does the 
Corporation take to ensure the grantee understands its 
responsibilities?
    3. Your testimony outlines the prevention activities undertaken by 
the Corporation, yet over the last year or so incidents continued to 
occur. Last year, we saw problems involving the National Endowment for 
the Arts; the peer review problems in awarding the Social Innovation 
Fund grants; and Planned Parenthood in New York City, New York and 
Tacoma, Washington. We appreciate your responsiveness when a problem 
arises, but we are more interested in preventing problems before they 
occur. What assurances can you give the committee that these 
controversial scandals will no longer happen?
    4. Your testimony put almost all responsibility for monitoring and 
properly enforcing the law on the grantees. I understand it is 
necessary to ensure they are doing their part, but it does not in any 
way lessen your obligation under the law. You are responsible for 
ensuring the law is followed, especially when it comes to prohibited 
activities. Please clarify your statement saying the grantee is 
``ultimately'' responsible for the subgrants and explain how you view 
the Corporation's role in that process.
    5. In placing so much responsibility on the grantees to ensure 
compliance with the law, can you tell the Committee how you ensure 
grantees are appropriately overseeing the subgrantees? Do you verify 
the grantees' review with a direct review of the subgrantees?
    6. What actions has the Corporation undertaken to obtain better 
information on the activities grantees are funding through your 
programs?
    7. How often does the Corporation work with the Inspector General 
to identify instances of waste, fraud, and abuse? In your opinion, does 
the Corporation rely too much on the Inspector General, thereby failing 
to provide clear guidance to grantees and subgrantees?
    8. Please discuss the changes the Corporation has put in place to 
satisfy the Inspector General's concerns with the Corporation's 
monitoring protocols.
    9. Do you have a sense as to how many calls the Inspector General's 
office receives informing them that prohibited activities are taking 
place?
    10. Given state budgetary shortfalls, what does staffing look like 
at the state level? On average, how many individuals are employed by 
these state commissions? How many of those staff are engaged in grant 
monitoring?
    11. Your testimony mentions that the Corporation engages in some 
baseline monitoring activities and some additional monitoring 
activities, if the resources and funds are available. How often does 
the Corporation utilize the additional monitoring activities?
    12. You state in your testimony that the Corporation relies on risk 
assessment to monitor your grantees. As demonstrated by the evidence 
from the current situation with New York Planned Parenthood, this is 
not the most effective monitoring tool available. Please explain what 
the Corporation looks at when it conducts the risk assessment and how 
it actually finds problems.
    13. The law clearly states prohibited activities for grantees, 
subgrantees, and program participants. How could grantees or 
subgrantees believe the positions funded at Planned Parenthood would be 
appropriate based on the clear letter of the law?
    14. It is clear that the number of program participants at the 
current level is too many for the Corporation to effectively monitor 
for instances of abuse. With this in mind, how can you reach the goal 
for the total number of participants established in the last 
reauthorization and still effectively monitor them?
    15. As stated in the hearing, oversight is necessary to ensure all 
federal agencies are in accordance with the law and using taxpayer 
dollars effectively. In the past five years, how many oversight 
hearings or audits has the Corporation completed?
    16. What is the cost per participant for all programs under the 
Corporation's jurisdiction?
    17. Do you currently have measures in place to evaluate your 
programs? If so, how can you evaluate their effectiveness if you have 
trouble guaranteeing that prohibited activities are not occurring?
                                 ______

              <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    [Whereupon, at 11:07 a.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
